CARSON J. TUCKER, JD, MSEL
Appeals, Legal Research,
Insurance Coverage, Defense and
Recovery, and Direct Personal
Legal Representation

ATTORNEY AND COUNSELOR AT LAW
117 N. FIRST ST., SUITE 111
ANN ARBOR, MI 48104

___________________
cjtucker@lexfori.org
Direct +17348879261
Main +17348879260
Fax +17348879255

Admitted to Practice in the
United States Supreme Court,
Sixth Circuit Court of Appeals,
United States Courts for the
Eastern and Western Districts,
and the State of Michigan

December 7, 2020
Via First Class Mail or As Directed
Scott S. Harris, Esq.
Clerk of the United States Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Attn: Clerk of the United States Supreme Court
Re:

Hawes v Stephens, et al., Petition for Writ of Certiorari to the United States Court of
Appeals for the Fifth Circuit

Our File No.: Trinity Advocates
Dear Sir:
I enclose for docketing a petition for a writ of certiorari in the above-mentioned matter.
We are filing this in compliance with the March 19, 2020 and April 15, 2020 orders of the
Court, regarding automatic extensions of time and format of the petition, respectively.
Also included is an appendix, a certificate of service and a certificate of word count, as
well as the filing / docketing fee of $300. The Respondents’ attorneys have consented to receive
these pleadings via electronic mailing.
Please do not hesitate to contact me if you have any questions or require additional
information regarding this filing. At present, we are not receiving and processing regular mail due
to COVID-19, and we are asking our clientele to communicate by email or phone if at all possible.
Sincerely,

Enclosure(s)

Carson J. Tucker, JD, MSEL

